V

"

No.

86
^

'

in Sllje

Supreme (Knurl of % lEniteii States
♦
LYNN SMITH, et al.
Petitioner
v.
ANDREA DOBIN, et. al.
Respondents

♦
On Petition For Writ of Certiorari
To the United States Court of Appeals for the Third Circuit

♦
PETITIONER FOR WRIT OF CERTIORARI

♦
Lynn Smith & Brian Smith
Pro se
294A Malvern Court East
Lakewood, New Jersey 08701
(732) 363-4451
app ealscourt@optonline. net

FILED
JUL 1 1 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

1

QUESTIONS PRESENTED
The Questions Presented that immediately follow provide the U.S. Supreme
Court with an opportunity to zero-in on current abuses in our state and federal court
system.
Question 1: When a Bankruptcy Debtor files a formal objection to the amount
of a Creditor’s claim and requests that the Creditor provide the
Additional Documents that the Debtor believes would conclusively
demonstrate that the size of the Creditor’s claim needs to be
significantly reduced, can the Creditor refuse to provide the
Additional Documents claiming that the Rooker-Feldman Doctrine
precludes a Debtor from receiving such documents.
Question 2: When a Bankruptcy Debtor files a formal objection to the amount
of a Creditor’s claim and requests that the Creditor provide the
Additional Documents that the Debtor believes would conclusively
demonstrate that the size of the Creditor’s claim needs to be
significantly reduced, can the Bankruptcy judge deny the
Additional Documents claiming that the Rooker-Feldman Doctrine
precludes a Debtor from receiving such documents.
Question 3: When a Bankruptcy Debtor files a formal objection to the amount
of a Creditor’s claim and requests that the Creditor provide the
Additional Documents that the Debtor believes would conclusively
demonstrate that the size of the Creditor’s claim needs to be
significantly reduced, can the Bankruptcy Trustee deny the
Additional Documents claiming that the Rooker-Feldman Doctrine
precludes a Debtor from receiving such documents.
PARTIES TO THE PROCEEDING
The parties in this proceeding are Lynn Smith, et. al., Petitioner and Andrea
Dobin, et al., Respondent.
RULE 29.6 STATEMENT
None of the petitioners is a nongovernmental corporation. None of the
petitioners has a parent corporation or shares held by a publicly traded company.

• n.
TABLE OF AUTHORITIES
Cases
Crowe v. DeGioia,
90N.J. 126(1982)
Revel AC, Inc., et ah, Debtors. Idea
Boardwalk, LLC
Philadelphia Entertainment & Development
Parties, LP, Case No. 17-1954
(3d Cir. Jan. 11, 2018)
Statutes and Constitutional Provisions
Amendment IV
Amendment V
Amendment VIII
Amendment XIV
Other Authorities
The Rooker-Feldman Doctrine

Ill

TABLE OF CONTENTS

Page
QUESTIONS PRESENTED........................
PARTIES TO THE PROCEEDING............
RULE 29.6 STATEMENT............................
TABLE OF AUTHORITIES........................
TABLE OF CONTENTS.............................
OPINIONS BELOW.....................................
JURISDICTION............................................
STATUATORY PROVISIONS INVOLVED
STATEMENT OF THE CASE.....................
REASONS FOR GRANTING THE WRIT...

1
1
i

ii

m
1
2
3

4
7

THIS COURT SHOULD GRANT REVIEW OF THE APPELLATE COURT DECISION THAT
WAS INCONSISTENT WITH THE SUPREME COURT PRECEDENTS THAT ADVISE LOWER
FEDERAL COURTS FROM OVEREXTENDING THE APPLICATION OF THE ROOKERFELDMAN DOCTRINE IN CASES LIKE THIS WHERE DEBTORS HAVE NO INTENT TO
OVERTURN STATE COURT FINAL JUDGMENTS BUT MERELY SEEK TO BE PROTECTED
FROM EXCESSIVE CREDITOR CLAIMS THAT THE REQUESTED ADDITIONAL
DOCUMENTS WOULD DEMONSTRATE NEED TO BE REDUCED IN DOLLAR
PARTICULARLY SINCE THE DEBTOR REQUESTS THROUGH A FORMAL OBJECTION OF
THE CREDITOR CLAIM BY MOTION TO THE COURT.
A This Court Should Grant Certiorari To Resolve The Above Conflict Which Denied the Debtor
the Opportunity to Reduce a False Creditor Claim that Justice Demands Should be
Significantly Reduced to Enable the Debtor to Proceed in Bankruptcy Court in Either Chapter
11 or Chapter 13, Rather than Chapter 7. The Petitioner Requests That This Court Also Note
That The Treatment the Debtor Received in this Case is How Pro Se Litigants in Foreclosure
Courts Seeking to Reduce Excessive Creditor Claims Routinely Conflicts With the
Congressional Intent, Supreme Court Procedures, Rules, and Precedents That Protect the
Overextension, the Misapplication of the Rooker-Feldman Doctrine.
B. This Court Should Grant Certiorari To Resolve The Abusive Conflict Between The
Misapplication By The Superior, Appellate And Supreme Courts of New Jersey of case
precedents such as Crowe v. DeGioia, 90 N.J. 126 (1982) That In Certain Instances Can Deny
The Civil, Due Process and Property Rights Of Foreclosure Defendants And Consider Making
A Precedential Ruling To Protect Otherwise Viable Classes of Pro se Foreclosure Litigants
That Are Currently Suffering From Ill-considered Rulings In State Courts,
Misapplication of Federal Court Cases Such As Revel AC, Inc., et al., Debtor And The
Rooker-Feldman Doctrine In The Third Circuit Carry Over The Abuse And Denial of Civil, Due
Process and Property Rights From The State To The Courts In A Self-Reinforcing Conundrum
That Enables State Court Negligence and Misconduct to Be Reaffirmed By Judges and
Trustee’s Unwilling to Put in the Work to Protect the Pro Se Litigants That Trust them to
Protect Their Rights and Equity.
CONCLUSION

7

IV.

Page
APPENDIX
3rd Circuit Appellant Brief of Lynn Smith,

App. 1

February 13, 2020 Denial of a Petition for Rehearing,

.App. 2

December 17, 2020 Dismissal of Appeal,

.App. 3

1
Lynn Smith respectfully petition for a writ of certiorari to review the judgment of
the New Jersey Supreme Court.

♦
OPINIONS BELOW
There were a December 17, 2020 Dismissal of Appeal which contained the opinion
that the Court of Appeals had no jurisdiction over a bankruptcy order that directly
resulted in the sale of my home. The Third Circuit a year prior ruled in this matter that
orders that resulted in the sale of property are considered “final orders”. In this case, they
argued the opposite. The relevant order can be found in Appendix 3.

♦

2

JURISDICTION
This Court has jurisdiction over federal cases under 28 U.S. Code § 1254(1).

♦

3

CONSTITUTIONAL PROVISIONS
AMENDMENT IV.
The right of the people to he secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants shall
issue, but upon probable cause, supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or things to be seized. The Supreme
Court centered its judgment on May 8, 2013 with an amendment dated May 30, 2013. The
jurisdiction of this Court is invoked under 28 U.S.C. § 1257.
AMENDMENT V.
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in the land
or naval forces, or in the Militia, when in actual service in time of War or public danger;
nor shall any person be subject for the same offence to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall private property
be taken for public use, without just compensation.
AMENDMENT VIII.
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.
AMENDMENT XIV.
SECTION. 1. All persons born or naturalized in the United States and subject to the
jurisdiction thereof are citizens of the United States and of the State wherein they reside.
No State shall make or enforce any law, which shall abridge the privileges or immunities
of citizens of the United States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.
-

4
STATEMENT OF THE CASE
3rd Circuit Appellant Brief of Lynn Smith states this case and needs to be read.
In this appeal, the trustee knew that the purchaser of my home was a ZIP
CODE Buyer and the auction a scam. Combined with the Bankruptcy Court’s refusal
to permit the Debtor to have the Additional Documents that Congress intended for
Debtor’s to have after they file formal objections to the size of a Creditor’s claim, by
denying a August 8th motion requesting this relief, my property was certainly at risk
since I was denied the Additional Documents that would have proved without a doubt
that I should be in Chapter 11 or Chapter 13, not Chapter 7.
The 3rd Circuit indicated that I had to wait for a final judgment in the
bankruptcy court per se before filing an appeal like I did. This is wrong. This is a
clear error since before even deciding the motion on October 1st, the trustee and the
judge evicted us from our home.
The abuse of the overextension of the Rooker-Feldman Doctrine occurred
starting a month prior to our eviction from our home. The trustee and the bankruptcy
court judge should have proceeded with the motion as a request for the State of New
Jersey to honor the request for additional documents, but, instead, they knowingly
and deliberately pretended that I was attempting to overturn a final judgment in
state court immediately after the motion was filed on August 8th. We refuted this
tactic immediately but were ignored. To pressure us and destabilize our home fife and
ability to litigate properly, the trustee threatened to evict us immediately. On
September 13th we were evicted. If the “Emergent Motion” was treated as such and
not scheduled for a hearing almost two months later, the Additional Information
could have been obtained within days or a few weeks of August 8th and we would
never have been evicted, our home never sold.
This eviction and having to tramp in hotels for several weeks led to my
youngest daughter having a permanent respiratory condition that has subsequently
resulted in close to 10 emergency room visits and hospital stays for fife-threatening
attacks.
The Dismissal of my Appeal should be vacated, and this matter referred back
to Bankruptcy Court under a new judge and trustee who will not abuse or otherwise
overextend the Rooker — Feldman Doctrine.

5
The misapplication of the Rooker-Feldman Doctrine and related precedents by
all Third Circuit courts flies in the face of Congressional intent and precedents set in
the Supreme Court. The lower federal court judges and trustees simply ignore their
mandates and responsibilities.
My home, which is presently empty, should be returned to me.
With the Third Circuit ruling in Philadelphia Entertainment & Development
Parties, LP, Case No. 17-1954 litigants saw a glimmer of hope for relief by debtor
victims of fraudulent claims. Unfortunately, in that case a trustee was rewarded with
a favorable ruling, but for debtors, such as Lynn Smith, who presented
unimpeachable evidence that the State of New Jersey filed a false claim in federal
court, she was denied justice by every lower federal court. What is good for the Trustee
Goose in Philadelphia was not for the gander as the Trustee in Lynn Smith’s Chapter
13 petition (converted into and maintained in Chapter 7 against all evidence) refused
to act on the alleged victim’s court testimony that the $809,237 claim was an excessive
claim. The evidence was presented and ignored.
In this case, federal judges who either shirk their responsibility to thoroughly
investigate the excessive claim of the State of New Jersey by permitting them to withhold the
Additional Documents.
Since this trustee and judge abuse occurred starting prior to our eviction and the
eventual sale, my empty home needs to be returned to me.
The new trustee and bankruptcy judge should permit an adversary compliant against
the State of New Jersey if they refuse to turn over the Additional Documents or refuse to
settle the matter. The State of New Jersey does not want it on the record that they have filed
false documents in federal court since 2011. This fraudulent concealment, when it is exposed,
should result in compensatory, general, and punitive damages to me in the tens of millions of
dollars, since their fraudulently placing me in Chapter 7 had the additional effect of denying
me the opportunity to recover anywhere from $25 to $100 million in cash from stolen
investments.
Right now, the Third Circuit took advantage of my pro se status to erroneously, or
possibly maliciously, claim that they did not have jurisdiction over my appeal - ignoring that
what was at stake was the immediate loss of my home for 30-years

6

In closing this section, Lower Federal Courts and Trustee Misapply the RookerFeldman Doctrine to Avoid Assuming their Jurisdictional Responsibilities
In re Revel AC, Inc. (3rd Cir. 2015) and the Hooker-Feldman Doctrine serve
lower federal court judges, crooked banks and lazy or crooked trustees well as the
federal court chants that deny the same basic rights as occurs in state court.
Lynn Smith was not the first person in all three lower federal courts to produce
a firm financing offer for $679,000 and be told that she had not proven she could
succeed if granted her “stay to pay” motions - and she will not be the last until such
time as the United States Supreme Court recognizes the corruption of process by
banks, regulators and judicial officials that find it convenient to disregard for U.S.
Supreme Court advice and precedent.
The disdain for Pro se litigant’s civil, due process and property rights occurs
hand-in-glove in both state and federal courts operating within the state of New
Jersey - and necessitates the multi-tiered relief requested in this petition. The point
in this section is simple.
If the trustee and all three lower federal courts:
(i)

had not gone to the well time after time with the citing of In re Revel AC,
Inc. (3rd Cir. 2015), Lynn Smith would have closed a $679,000 non-debt
refinancing and would be in Chapter 13 instead of Chapter 7, and

(ii)

had not ignored the advice and precedent of the United States Supreme
Court and the preponderance of published legal opinion and abused Lynn
Smith and 200 families-in-interest by denying her clearly meritorious
exception to the Rooker- Feldman Doctrine, the request for Additional
Documents from the creditor to prove that the claim of $809,237 should
be significantly lowered, Lynn Smith would be in Chapter 11 or Chapter
13 or out of Bankruptcy Court completely instead of in Chapter 7.

Not only did Dobin proceed with the auction knowing that I did not owe the
State of New Jersey $809,237, but they conducted a ZIP CODE AUCTION which is
illegal, then went against Congressional intent by ignoring her mandate, ignoring
Congressional intent and denying me the Additional Information I requested after
objecting to the state’s claim, solely to keep me in Chapter 7 to sell my home to her
friends and associates.

7

REASONS FOR GRANTING OF THE PETITION
The Bankruptcy Court, District Court, and Court of Appeals all erred by relying
on their overextension of the application of the Rooker-Feldman Doctrine to deny me the
Additional Documents that Congress intended for Debtors who file formal objections to
the size of Creditor claims to have.
In the Court of Appeals, they did have jurisdiction since what was at stake in the
motions I appealed from, filed before eviction and sale of my home, should have been
investigated properly. The key mistake was to claim the Rooker-Feldman Doctrine
prohibited me from getting Additional Documents from the state of New Jersey that
would have permitted me to reduce the size of that claim significantly from $809,237 and
get back to Chapter 11 or Chapter 13.
Quite frankly, these were not errors. This was an abuse of power against a pro se
litigant. They ignored Congress, they ignored SCOTUS because they believed I would fold
after eviction and not be able to mount an effective response to their misconduct toward
me.
Strange, since, in July and August 2018 rulings, the Third Circuit defined a ‘final
judgment” for the purpose of having jurisdiction to appeal, as the imminent threat of the
loss of my home.
CONCLUSION
This petition should be granted for all the above reasons, attached evidence
and prior filings.
The primary intent of this petition brief was to more accurately and roundly
present to this Court a serious problem that may not be unique to the state of New
Jersey with respect to Pro se litigants forced into bankruptcy court. What goes on is
largely a rape of innocent lower and middle class families struggling to make a proper
homestead for their children and simply survive our complicated modern life
increasingly typified by a myriad ways and means to extract cash from them.
There is a swamp in New Jersey.
Godspeed!
Please grant my petition.

;

If the Court sees the error or abuse clearly, aske me to file a Writ of Mandamus
outlining this case and requesting an immediate order of this Court.
If Certiorari is granted, I will poach my pension funds and retain a law firm.
A District Court concealed a Reconsideration Motion for 90-days because it
contained information that would have exposed the trustee and judges for their
misconduct and abuse toward me. They said it was never filed even though I have the
receipt that they signed for it.
The result of this is a waste of 30-days of my time that delayed the writing of
this petition, and denied me the opportunity for my husband to attempt to obtain legal
advice on a one-day basis or even retention — something also made difficult by the
recent upsurge in COVID-19 cases. I may file a motion asking this Court to permit
me to file an Amended Writ or an Addendum to this Writ.
I request a fee waiver. I have included a Motion to Proceed In Forma Pauperis
recently filed in the Third Circuit which explains and details that I have no money
until the end of August.
Thanks for your patience.
Respectfully submitted.

